                           UNITED STATES DEPARTMENT OF EDUCATION

                                              OFFICE OF INSPECTOR GENERAL




                                                                   ~lAN     2. 3 2004

MEMORANDUM


TO:            Jack Martin
               Chief Financial Officer


FROM:          Helen Lew           Adn- w
               Assistant Inspector General for Audit


SUBJECT: 	     FEDERAL INTRAGOVERNMENTAL ACTIVITY AND BALANCES
               AGREED-UPON PROCEDURES REPORT
               (ED-OIG/A17E0004)

The enclosed report presents the results of the U.S. Department of Education's Federal
Intragovemmental Activity and Balances agreed-upon procedures engagement. The purpose of
the engagement was to perform certain procedures to compare and identify differences between
the Department's reconciliation of intragovemmental transactions with its trading partners and
the Department's audited financial statements for fiscal year 2003. The Office of Inspector
General (OIG) contracted with Ernst & Young, LLP, Certified Public Accountants, to perform
the engagement. The OIG monitored the progress and completion of the work to ensure
compliance with Government Auditing Standards and standards established by the American
Institute of Certified Public Accountants.

The auditors have discussed the findings with you or appropriate members of your staff during the
engagement. This report is intended solely to assist the Department of the Treasury, Financial
Management Service (FMS), the General Accounting Office (GAO), and the Office of
Management and Budget COMB), in evaluating Department management's assertions about its
Federal Intragovemmental Activity and Balances. As such, no further action on your part is
necessary.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.
Copies of this report have been provided to the persons shown on the distribution list.



                                     400 MARYLAND AVE.,      s.w. WASHINGTON, D.C.     20202-1510 


             Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation. 

Jack Martin                                                          ED-OIGI A 17E0004
Page 2


We appreciate the cooperation given us and Ernst & Young, LLP, during the engagement.
Should you have any questions concerning the report, please contact me at 205-9604 or Todd
Givens at 205-7945.


Attachment

Distribution List:

Mark Carney -OCFO
Terry Bowie - OCFO
Bill Fleming - OCFO
AGREED UPON PROCEDURES
INTRAGOVERNMENTAL TRANSACTIONS
U.S. Department of Education
Year Ended September 30, 2003
!@#                                                  Q   Ernst & Young LLP                     Q   Phone:(202) 327-6000
                                                         1225 Connecticut Avenue, N.W.             Fax:(202) 327-6200
                                                         Washington, D.C. 20036                    www.ey.com




                              Independent Accountant’s Report 

                             On Applying Agreed-Upon Procedures 



To the Inspector General
U.S. Department of Education

We have performed the procedures enumerated in the attachment, which were agreed to by the
U.S. Department of the Treasury’s Financial Management Service (FMS), the U.S. General
Accounting Office (GAO), and the Office of Management and Budget (OMB). These procedures
were performed solely to assist them in evaluating the U.S. Department of Education (the
Department) management's assertion that it reconciled Federal intragovernmental activity and
balances for the fiscal year ended September 30, 2003, and compared the intragovernmental
activity and balances per the financial records supporting the audited department consolidated
financial statements for fiscal year 2003, as to amounts and USSGL accounts with the final
amounts and USSGL accounts submitted to FMS (FACTS I and/or FACTS NOTES). This
agreed-upon procedures engagement was performed in accordance with attestation standards
established by the American Institute of Certified Public Accountants. The sufficiency of these
procedures is solely the responsibility of FMS, GAO and OMB. Consequently, we make no
representation regarding the sufficiency of the procedures described in the attachment either for
the purpose for which this report was requested or for any other purpose. The procedures
performed and the related findings are enumerated in the attachment.

We were not engaged to and did not perform an examination, the objective of which would be an
expression of an opinion on management’s assertion. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of those parties in this report and is not
intended to be and should not be used by any one other than these specified parties.




January 23, 2004 

Washington, D.C. 





                          Ernst & Young LLP is a member of Ernst & Young International, Ltd.
            AGREED-UPON PROCEDURES AND E&Y FINDINGS

Procedure 1

Review the electronic file provided by the agency CFO of the responses to the intragovernmental
reciprocal account categories of the CFO representations for fiduciary and non-fiduciary
transactions as described in the Treasury Financial Manual (TFM), Section 4060.70. For each
“Yes” response, perform the following steps:

   • 	 Compare the amounts in such reconciliations to supporting documentation. Indicate if no
       differences were found. Explain in detail any differences.

   • 	 Trace the adjustments, if any, identified in the reconciliation process that require
       recognition on the books of the reporting entity (rather than on the books of the trading
       partner) to documentation supporting the recording of such amounts in the agency’s
       financial records. Indicate if no differences were found. Explain in detail any
       differences.

Findings:

The following exceptions were noted:

   1. 	 The Department did not send confirmations to all of its non-fiduciary trading partners.

   2. 	The Department did not receive responses to most confirmations requests for non-
       fiduciary intragovernmental transactions.

   3. 	The Department was unable to perform reconciliations for non-fiduciary transactions
       since most trading partners confirm non-fiduciary intragovernmental transactions at a
       summary level. According to the Department, reconciliations can only be performed for
       these transactions when balances are confirmed on an award level basis.

   4. 	The Department was unable to identify trading partners for the following account
       balances:


              Account        Balance
              2110           $(4,178) 

              2400           $7,067 

              5990           $308 

              6100           $(145,726,453)     


   5. 	 For USSGL Account 2520(F), we were informed by the Department that $2,046,058 in
        capitalized interest was not included in the Department’s general ledger, but was included
        in the amount reported by the Federal Financing Bank.
   6. 	 For USSGL Account 6310(F), a total of $1,588,138 was not included in the Department’s
        general ledger; however, it was included in the amount reported by the Federal Financing
        Bank. We were informed by the Department that this difference is composed of:

              Capitalized Interest        $1,428,146 

              Missing SF 1081                167,095 

              Interest Expense Adjustment    706,659 

              Reversal of Accrual           (713,762) 




Procedure 2

Review the electronic file provided by the agency CFO of the responses to the CFO
Representations for reconciliation of intragovernmental activity and balances. For each “Yes”
response, perform the following step:

   • 	 Compare the amounts, excluding intradepartmental activity and balances, in the audited
       agency consolidated financial statements to such amounts in the agency final FACTS I
       and/or FACTS I NOTES reports. Indicate if no differences were found. Explain in detail
       any differences.

Findings:

The following exceptions were noted:

   7. 	 Intragovernmental balances from FACTS I could not be directly tied to the face of the
        audited consolidated financial statements primarily due to 1) sector changes made for
        financial statement preparation purposes that are not reflected in the FACTS file and 2)
        trading partner code issues.

   8. 	 The FACTS I trial balance reported a total of $100,268,720,168 for Intragovernmental
        Liabilities. However, the amount reported on the audited consolidated financial
        statements was $100,267,200,000, which is a difference of $1,520,168.

   9. 	The FACTS I trial balance reported a total of $6,891,117,406 for Intragovernmental
       Costs. However, the amount reported on the audited consolidated financial statements
       was $6,828,113,000, which is a difference of $63,004,406.
Procedure 3

Review the “Status of Disposition of Identified Differences” form on intragovernmental activity
reported in FACTS I (provided by CFO). Comment indicating your agreement, or disagreement,
with the data provided by the CFO.

Finding:

We noted that the Department adequately reported the status of identified differences based upon
the balances reported on the “Agency by Reciprocal Category Detail” and in accordance with the
threshold set by FMS of $400 million.
